TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Fiscal Year 2011 Review of
                  Compliance With Legal Guidelines When
                 Conducting Seizures of Taxpayers’ Property



                                            May 6, 2011

                              Reference Number: 2011-30-049




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information




 Phone Number | 202-622-6500
 Email Address / TIGTACommunicationsinquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


FISCAL YEAR 2011 REVIEW OF                                  notice of seizure provided to the taxpayer.
COMPLIANCE WITH LEGAL GUIDELINES                            (I.R.C. § 6335(a))
WHEN CONDUCTING SEIZURES OF                             •   The sale of the seized property was not
TAXPAYERS’ PROPERTY                                         advertised as required. (I.R.C. § 6335(b))
                                                    When legal and internal guidelines are not
Highlights                                          followed, it could result in the abuse of
                                                    taxpayers’ rights.
Final Report issued on May 6, 2011                  Over the past several years, the IRS has
                                                    implemented procedures and controls
Highlights of Reference Number: 2011-30-049         significantly improving compliance with legal and
to the Internal Revenue Service Commissioner        internal guidelines. For example, in the Fiscal
for the Small Business/Self-Employed Division.      Year 2008 review, TIGTA identified 25 instances
IMPACT ON TAXPAYERS                                 in which the IRS did not comply with a particular
                                                    I.R.C. requirement involving 19 of the
To ensure taxpayers’ rights are protected, the      50 seizures reviewed. This year, TIGTA
Internal Revenue Service (IRS) Restructuring        identified nine instances in which the IRS did not
and Reform Act of 1998 amended the seizure          comply.
provisions in Internal Revenue Code (I.R.C.)
Sections (§§) 6330 through 6344. The IRS did        WHAT TIGTA RECOMMENDED
not always comply with these statutory              TIGTA did not make any recommendations in
requirements. Although TIGTA did not identify       this report. IRS management took appropriate
instances in which taxpayers were adversely         action after TIGTA presented its findings.
affected, noncompliance with I.R.C.
requirements could result in abuses of              Although TIGTA made no recommendations in
taxpayers’ rights.                                  this report, IRS officials were provided an
                                                    opportunity to review the draft report. IRS
WHY TIGTA DID THE AUDIT                             management did not provide any report
TIGTA is required under I.R.C.                      comments.
§ 7803(d)(1)(A)(iv) to annually evaluate the
IRS’s compliance with the legal seizure
provisions to ensure that taxpayers’ rights were
not violated while seizures were being
conducted.
WHAT TIGTA FOUND
TIGTA reviewed a random sample of 50 of the
578 seizures conducted from July 1, 2009,
through June 30, 2010, to determine whether
the IRS is complying with legal and internal
guidelines when conducting each seizure.
In the majority of seizures, the IRS followed all
guidelines, and TIGTA did not identify any
instances in which the taxpayers were adversely
affected. However, TIGTA found instances in
which:
•   The amount of the liability for which the
    seizure was made was not correct on the
                                                    DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                      May 6, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – Fiscal Year 2011 Review of Compliance With
                                  Legal Guidelines When Conducting Seizures of Taxpayers’ Property
                                  (Audit # 201130002)

 This report presents the results of our review to determine whether seizures1 conducted by the
 Internal Revenue Service (IRS) complied with legal provisions set forth in Internal Revenue
 Code (I.R.C.) Sections (§§) 6330 through 6344 and with the IRS’s own internal procedures. The
 Treasury Inspector General for Tax Administration is required under I.R.C. § 7803(d)(1)(A)(iv)
 to annually evaluate the IRS’s compliance with the legal seizure provisions to ensure that
 taxpayers’ rights were not violated while seizures were being conducted. We have evaluated the
 IRS’s compliance with the seizure provisions since Fiscal Year 1999. This audit was not
 intended to determine whether the decision to seize was appropriate or to identify the cause of
 any violations. The audit was included in our Fiscal Year 2011 Annual Audit Plan and addresses
 the major management challenge of Taxpayer Protection and Rights.
 Although we made no recommendations in this report, we did provide IRS officials an
 opportunity to review the draft report. IRS management did not provide us with any report
 comments.
 Copies of this report are also being sent to the IRS managers affected by the report. Please
 contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant Inspector
 General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




 1
     Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
                       Fiscal Year 2011 Review of Compliance With Legal Guidelines
                             When Conducting Seizures of Taxpayers’ Property




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Legal Provisions and Internal Procedures Were Not Always Adhered
          to When Conducting Seizures ....................................................................... Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 6
          Appendix II – Major Contributors to This Report ........................................ Page 7
          Appendix III – Report Distribution List ....................................................... Page 8
          Appendix IV – Outcome Measure ................................................................ Page 9
          Appendix V – Synopsis of Selected Legal Provisions for
          Conducting Seizures ..................................................................................... Page 10
          Appendix VI – Prior Reports on Compliance With Seizure Procedures ...... Page 13
         Fiscal Year 2011 Review of Compliance With Legal Guidelines
               When Conducting Seizures of Taxpayers’ Property




                        Abbreviations

I.R.C.            Internal Revenue Code
IRS               Internal Revenue Service
                    Fiscal Year 2011 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property




                                              Background

The collection of unpaid tax by the Internal Revenue Service (IRS) generally begins with letters
to the taxpayer followed by telephone calls and personal contacts by an IRS employee. The
employees who make personal contacts are referred to as revenue officers. They consider the
taxpayer’s ability to pay the tax and discuss alternatives, such as an installment agreement or an
offer in compromise.1 If these actions have been taken and the taxpayer has not fully paid the tax
due, the revenue officer has the authority to take the taxpayer’s funds or property for the
payment of tax. Taking a taxpayer’s property for unpaid tax is commonly referred to as a
“seizure.”
To ensure that taxpayer rights are protected, the IRS Restructuring and Reform Act of 19982
amended the seizure provisions in Internal Revenue Code (I.R.C.) Sections (§§) 6330 through
6344. These provisions and the IRS’s internal procedures are very specific regarding how a
seizure should be performed. See Appendix V for a synopsis of the applicable legal provisions.
The Treasury Inspector General for Tax Administration is required under
I.R.C. § 7803(d)(1)(A)(iv) to annually evaluate the IRS’s compliance with these legal seizure
provisions. Since Fiscal Year 1999, we have evaluated the IRS’s compliance with the seizure
provisions. See Appendix VI for a list of all prior audit reports issued on the IRS’s compliance
with seizure procedures.
Following passage of the IRS Restructuring and Reform Act of 1998, the number of seizures by
the IRS decreased from 10,090 in Fiscal Year 1997 to 74 in Fiscal Year 2000. Although the
number of seizures has increased since Fiscal Year 2000, the number in Fiscal Year 2010 was
still 6 percent of the number reported in Fiscal Year 1997. It is unlikely that the use of seizures
will ever return to the pre-1998 levels. Figure 1 illustrates the number of seizures made over the
past 5 fiscal years.




1
  An offer in compromise is a proposal by a taxpayer to settle an unpaid account(s) for less than the full amount of
the balance due.
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                              Page 1
                       Fiscal Year 2011 Review of Compliance With Legal Guidelines
                             When Conducting Seizures of Taxpayers’ Property



                                  Figure 1: IRS Seizures by Fiscal Year




                Source: IRS Data Books.3

This review was performed at the Small Business/Self-Employed Division Headquarters in
New Carrollton, Maryland, during the period August 2010 through February 2011. The audit
focused on determining whether the IRS conducted seizures in compliance with legal and
internal procedures. It was not intended to determine whether the decision to seize was
appropriate or to identify the cause of any violations. We did not assess internal controls
because doing so was not applicable within the context of our audit objective. Otherwise, we
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




3
    The IRS Data Book is a report that describes activities conducted by the IRS during the fiscal year.
                                                                                                           Page 2
                    Fiscal Year 2011 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property




                                      Results of Review

Legal Provisions and Internal Procedures Were Not Always Adhered
to When Conducting Seizures
We reviewed a random sample of 50 of the 578 seizures conducted from July 1, 2009, through
June 30, 2010, to determine whether the IRS is complying with legal and internal guidelines
when conducting each seizure. Our review included a total of 58 guidelines for each seizure.4 In
the majority of seizures, the IRS followed all guidelines applicable to the respective case, and we
did not identify any instances in which the taxpayers were adversely affected. However, not
following the legal and internal guidelines could result in the abuse of taxpayers’ rights.
Specifically, we found:
    •   Four instances in which the amount of the liability for which the seizure was made was
        not correct on the notice of seizure provided to the taxpayer. (I.R.C. § 6335(a))
    •    *******************1*******************************************************************

    •   Three instances in which the sale of the seized property was not advertised as required.
        (I.R.C. § 6335(b))
Over the past several years, the IRS has implemented procedures and controls significantly
improving compliance with legal and internal guidelines. For example, in the Fiscal Year 2008
review, we identified 25 instances in which the IRS did not comply with a particular I.R.C.
requirement, involving 19 of the 50 seizures reviewed.5 This year, we identified 9 instances in
which the IRS did not comply, involving 9 of the 50 seizures reviewed.




4
  The guidelines applicable for each seizure vary due to the timing between the date of seizure and date of our
review. For example, at the time of our review, the sale for the seized property may not have been advertised, the
sale may have been advertised but had not yet occurred, the property may have been redeemed or released prior to
sale, or the property may have been sold.
5
  Fiscal Year 2008 Review of Compliance With Legal Guidelines When Conducting Seizures of Taxpayers’ Property
(Reference Number 2008-30-126, dated June 6, 2008).
                                                                                                          Page 3
                    Fiscal Year 2011 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



Taxpayers were not always provided notices of seizure with accurate liability
balances or a correct accounting of the property seized
I.R.C. § 6335(a) requires the IRS, as soon as practicable after the seizure of property, to provide
the owner of the property with a notice in writing that specifies the liability for which the seizure
was made and an accounting of the property seized.
The Internal Revenue Manual provides guidance on completing the Notice of Seizure
(Form 2433).6 It requires that the Form 2433 liability equal the taxpayer’s total amount due for
the tax modules7 listed on the Levy (Form 668-B).8 This amount should include all accruals and
match the Total Amount Due on Form 668-B. If there is a difference in amount, it should be
documented in the Integrated Collection System9 history. The items of property seized should be
described and identified with reasonable certainty in an inventory listed on the Form 2433 or in
an attachment to the Form 2433. We identified four cases in which the Forms 2433 provided to
the taxpayers did not show the correct liabilities for which the seizures were made. Because the
number of errors was small, we are not making any recommendations.

**********************************************1************************************************
**********************************************************
I.R.C. § 6342(a) and the Internal Revenue Manual require any money realized by seizure or by
sale of seized property to be applied, in the following order, against:
    1) The expenses of the proceedings.
    2) Any unpaid tax imposed by any Internal Revenue law against the property seized and
       sold (for example, an excise tax).
    3) The liability with respect to which the levy was made or the sale was conducted (the
       accounts appearing on the Form 668-B).
Because the I.R.C. requires funds realized under seizure and sale proceedings to be applied first
to the expenses of the levy and sale, the Internal Revenue Manual requires the proceeds to be
credited to the taxpayer’s account using a Transaction Code10 694, Designated Payment of Fees
and Collection Costs, for the amount of the expenses. *****************1***************

6
  The Form 2433 is the taxpayer’s receipt for the seized property. The document specifies the sum demanded – for
personal property, a listing of the property seized; and for real property, a description of the property seized.
7
  Tax module refers to each tax return filed by the taxpayer for a specific period (year and quarter) during a calendar
year for each type of tax.
8
  A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
on balance-due accounts that are not being paid voluntarily.
9
  The Integrated Collection System is an automated system used to control and monitor delinquent cases assigned to
revenue officers in the field offices.
10
   Transaction codes are used to identify transactions being processed to the IRS computer systems and to maintain a
history of actions posted to a taxpayer’s account.
                                                                                                               Page 4
                 Fiscal Year 2011 Review of Compliance With Legal Guidelines
                       When Conducting Seizures of Taxpayers’ Property



**************************************1************************************
****************************************************************************
***************************************************************************
**************************************************************

Sales of seized properties were not always properly advertised
I.R.C. § 6335(b) requires that the IRS, as soon as practicable after the seizure of property, give
notice to the owner and publish a notification in a newspaper distributed within the county where
the seizure was made. If there is no newspaper published or generally circulated in the county,
the IRS must post a notice at the post office nearest the place where the seizure is made and in
not less than two other public places. The notice must specify the property to be sold and the
time, place, manner, and conditions of the sale thereof.
The Internal Revenue Manual requires that the notice of sale contain the description of the
property; the date, time, and place of sale; the payment terms; and information on the grouping
of property. ********************************1*********************************
******************************************************************.
Management Actions: After being informed of our results, management issued a memorandum
to all Property Appraisal and Liquidation Specialists group managers emphasizing that
advertising for the sale of seized assets must match the information on the Notice of Public
Auction Sale (Form 2434).




                                                                                           Page 5
                    Fiscal Year 2011 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether seizures1 conducted by the
IRS complied with legal provisions set forth in I.R.C. Sections (§§) 6330 through 6344 and with
the IRS’s own internal procedures.2 We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.
To accomplish our objective, we:
I.       Obtained documentation of national guidelines provided to employees; identified IRS
         systems, policies, and practices for ensuring compliance with legal provisions and
         internal procedures related to seizures; and determined how these tools were used.
II.      Selected and reviewed a random sample of 50 of the 578 seizures conducted by the IRS
         from July 1, 2009, through June 30, 2010. We reviewed the sample of seizures to
         determine whether the IRS complied with legal provisions and internal procedures and
         whether the proceeds and applicable expenses of the seizures and sales were properly
         recorded to the taxpayers’ accounts on the IRS’s main computer system. We used a
         random sample to ensure that each of the 578 seizures had an equal chance of being
         selected.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Small Business/Self-Employed
Division Collection function’s policies, procedures, and practices for conducting seizures of
taxpayers’ property under the provisions of I.R.C. §§ 6330 through 6344. We did not assess
internal controls because doing so was not applicable within the context of our audit objective to
determine whether the IRS complied with these legal provisions.




1
 Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
2
 This audit was not intended to determine whether the decision to seize was appropriate or to identify the cause of
any violations.
                                                                                                             Page 6
                Fiscal Year 2011 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Glen J. Rhoades, Audit Manager
Janis Zuika, Lead Auditor
Curt J. Kirschner, Senior Auditor




                                                                                      Page 7
                Fiscal Year 2011 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 8
                    Fiscal Year 2011 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



                                                                                              Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our review will have
on tax administration. This benefit will be incorporated into our Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Actual; ***1*** taxpayers1 for whom the IRS did not
    comply with legal provisions and internal procedures when conducting seizures2 (see page 3).

Methodology Used to Measure the Reported Benefit:
We selected and reviewed a random sample of 50 of the 578 seizures conducted from
July 1, 2009, through June 30, 2010. While we did not identify any instances in which the
taxpayers were adversely affected, not adhering to legal and internal guidelines could result in
the abuse of taxpayers’ rights.




1
  We identified nine seizures in which the IRS did not follow all legal and internal guidelines. *****1*********
**************************************1****************************************************
*******************************************************.
2
  Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
                                                                                                          Page 9
                     Fiscal Year 2011 Review of Compliance With Legal Guidelines
                           When Conducting Seizures of Taxpayers’ Property



                                                                                                     Appendix V

                 Synopsis of Selected Legal Provisions
                       for Conducting Seizures

I.R.C. § 6330 requires the IRS to issue the taxpayer a notice of his or her right to a hearing prior
to seizure1 action. The notice must be 1) given in person, 2) left at the taxpayer’s home or
business, or 3) mailed as certified-return receipt requested no fewer than 30 calendar days before
the day of the seizure. The notice must explain in simple terms 1) the amount owed, 2) the right
to request a hearing during the 30-calendar-day period, and 3) the proposed action by the IRS
and the taxpayer’s rights with respect to such action.
The statute of limitations for collection is suspended from the time a taxpayer requests a hearing
and while such hearings and appeals are pending, except when the underlying tax liability is not
at issue in the appeal and the court determines that the IRS has shown good cause not to suspend
the seizure. No limitation period may expire before 90 calendar days after a final determination.
These procedures do not apply if the collection of tax is at risk.
I.R.C. § 6331 authorizes the IRS to seize a taxpayer’s property for unpaid tax after sending the
taxpayer a 30-calendar-day notice of intent to levy.2 This Section also prohibits seizure 1) during
a pending suit for the refund of any payment of a divisible tax, 2) before a thorough investigation
of the status of any property subject to seizure, or 3) while either an offer in compromise3 or an
installment agreement is being evaluated and, if necessary, for 30 additional calendar days
during which the taxpayer may appeal the rejection of the offer in compromise or installment
agreement.
I.R.C. § 6332 requires a third party in possession of property subject to seizure to surrender such
property when a levy notice is received. It contains sanctions against third parties that do not
surrender such property when a levy notice is received.
I.R.C. § 6333 requires a third party with control of books or records containing evidence or
statements relating to property subject to seizure to exhibit such books or records to the IRS
when a levy notice is received.




1
  Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
2
  A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
on balance-due accounts that are not being voluntarily paid.
3
  An offer in compromise is a proposal by a taxpayer to settle an unpaid account(s) for less than the full amount of
the balance due.
                                                                                                               Page 10
                    Fiscal Year 2011 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



I.R.C. § 6334 enumerates property exempt from seizure. The exemption amounts are adjusted
each year and included $7,900 for the period July 1 through December 31, 2008, and $8,230 for
the period January 1 through June 30, 2009, for fuel, provisions, furniture, and personal effects;
and $3,950 for the period July 1 through December 31, 2008, and $4,120 for the period
January 1 through June 30, 2009, for books and tools necessary for business purposes. Also, any
primary residence, not just the taxpayer’s, is exempt from seizure when the amount owed is
$5,000 or less. Seizure of the taxpayer’s principal residence is allowed only with the approval of
a United States District Court judge or magistrate. Property used in an individual taxpayer’s
business is exempt except with written approval of the Area Office4 Director, and the seizure
may be approved only if other assets are not sufficient to pay the liability.
I.R.C. § 6335 contains procedures for the sale of seized property. Notice must be given to the
taxpayer; the property must be advertised in the county newspaper or posted at the nearest
United States Postal Service office; and such notices shall specify the time, place, manner, and
conditions of sale. This Section requires that the property be sold no fewer than 10 calendar days
or more than 40 calendar days from the time of giving public notice. Finally, this Section
expressly prohibits selling seized property for less than the minimum bid.
I.R.C. § 6336 contains procedures for the accelerated disposition of perishable property. This is
property such as fresh food products or any property that requires prohibitive expenses to
maintain during the normal sale time period. The property may either be sold quickly or
returned to the taxpayer in exchange for payment of a bond.
I.R.C. § 6337 allows the taxpayer to redeem seized property prior to sale by paying the amount
due plus the expenses of the seizure. It also allows a taxpayer to redeem real property within
180 calendar days of the sale by paying the successful bidder the purchase price plus 20 percent
per annum interest.
I.R.C. § 6338 requires the IRS to give purchasers of seized property a certificate of sale upon
full payment of the purchase price. This includes issuing a deed to real property after expiration
of the 180-calendar-day period required by I.R.C. § 6337. The deed is exchanged for the
certificate of sale issued at the time of the sale.
I.R.C. § 6339 provides the legal effect of the certificate of sale for personal property and the
transfer deed for real property.
I.R.C. § 6340 requires each Area Office to keep a record of all sales of seized property. This
record must include the tax for which such sale was made, the dates of seizure and sale, the name
of the party assessed, all proceedings in making such sale, the amount of expenses, the names of
the purchasers, and the date of the deed or certificate of sale of personal property. The taxpayer


4
 A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
                                                                                                            Page 11
                    Fiscal Year 2011 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



will be furnished 1) the information above except the purchasers’ names, 2) the amount of such
sale applied to the taxpayer’s liability, and 3) the remaining balance of such liability.
I.R.C. § 6341 allows expenses for all seizure and sale cases.
I.R.C. § 6342 enumerates how the proceeds of a seizure and sale are to be applied to a
taxpayer’s account. Proceeds are applied first to the expenses of the seizure and sale
proceedings. Any remainder is then applied to the taxpayer’s liability.
I.R.C. § 6343 outlines various conditions under which a seizure may be released and property
returned to the taxpayer. These conditions include full payment of the liability, determination of
a wrongful seizure, financial hardship, etc. This Section allows a consent agreement between the
United States and either the taxpayer or the National Taxpayer Advocate5 when the return of
seized property would be in the taxpayer’s best interest.
I.R.C. § 6344 contains cross-references for I.R.C. §§ 6330 through 6344.
Public Law Number 105-206 (IRS Restructuring and Reform Act of 1998)6 § 3443 required
the IRS to implement a uniform asset disposal mechanism by July 22, 2000, for sales of seized
property under I.R.C. § 6335. This mechanism was designed to remove revenue officers7 from
participating in the sales of seized assets.
Public Law Number 105-206 (IRS Restructuring and Reform Act of 1998) § 3421 required
the IRS to employ a supervisory review of seizures before action is taken.




5
  The Taxpayer Advocate Service is an independent organization within the IRS whose employees assist taxpayers
seeking help in resolving tax problems that have not been resolved through normal channels or who are experiencing
significant hardships.
6
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
7
  The employees who make personal contacts with taxpayers about the collection of unpaid tax are referred to as
revenue officers.
                                                                                                        Page 12
                Fiscal Year 2011 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                             Appendix VI

                     Prior Reports on Compliance
                       With Seizure Procedures

The Internal Revenue Service Needs to Improve Compliance With Legal and Internal Guidelines
When Taking Taxpayers’ Property for Unpaid Taxes (Reference Number 199910072, dated
September 27, 1999).
The Internal Revenue Service Has Significantly Improved Compliance With Legal and Internal
Guidelines When Seizing Taxpayers’ Property (Reference Number 2000-10-114, dated
August 9, 2000).
Letter Report: The Internal Revenue Service Complied With Legal and Internal Guidelines
When Seizing Property for Payment of Tax (Reference Number 2001-10-061, dated
May 11, 2001).
The Internal Revenue Service Has Taken Significant Actions, But Increased Oversight Is Needed
to Fully Implement the Uniform Asset Disposal Mechanism (Reference Number 2002-10-005,
dated November 26, 2001).
The Internal Revenue Service Continues to Comply With the Law When Seizing Taxpayers’
Property (Reference Number 2002-40-155, dated August 21, 2002).
Fiscal Year 2003 Statutory Audit of Compliance With Seizure Procedures (Reference
Number 2003-40-115, dated May 12, 2003).
Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
Taxpayers’ Property (Reference Number 2004-30-149, dated August 25, 2004).
Fiscal Year 2005 Review of Compliance With Legal Guidelines When Conducting Seizures of
Taxpayers’ Property (Reference Number 2005-30-091, dated June 3, 2005).
Fiscal Year 2006 Review of Compliance With Legal Guidelines When Conducting Seizures of
Taxpayers’ Property (Reference Number 2006-30-113, dated August 9, 2006).
Fiscal Year 2007 Review of Compliance With Legal Guidelines When Conducting Seizures of
Taxpayers’ Property (Reference Number 2007-30-109, dated July 3, 2007).
Fiscal Year 2008 Review of Compliance With Legal Guidelines When Conducting Seizures of
Taxpayers’ Property (Reference Number 2008-30-126, dated June 6, 2008).
Fiscal Year 2009 Review of Compliance With Legal Guidelines When Conducting Seizures of
Taxpayers’ Property (Reference Number 2009-30-077, dated May 19, 2009).

                                                                                      Page 13
               Fiscal Year 2011 Review of Compliance With Legal Guidelines
                     When Conducting Seizures of Taxpayers’ Property



Fiscal Year 2010 Review of Compliance With Legal Guidelines When Conducting Seizures of
Taxpayers’ Property (Reference Number 2010-30-049, dated May 7, 2010).




                                                                                   Page 14
